WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

19-875

OTO, L.L.C.

Ken Kho, et al.
ilictitioner)

(Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested.
by the Court.
Please check the appropriate boxes:
0 Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my
;;ppearance as Counsel of Record for the following respondent(s):

Ken Kho

I am a member of the Bar of the Supreme Court of the United States.
El Iam not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by- a Bar member.
Signature -

7

January 23, 2020

Date:

(Type or print) Name
Firm

David A. Rosenfeld
Mr.

11 Ms.

ti Mrs.

rjMiss

Weinberg, Roger & Rosenfeld

Address

( 'it v
Phone

1001 Marina Village Parkway, Suite 200
Alameda, California

(510) 337-1001

E

Zip 94501
drosenfeld@unioncounsel.net

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

C(': Kannon K. Shanmugam, Attorney for Petitioner
Miles Locker, Attorney for Respondent Julie A. Su, California Labor Commissioner

